Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


    NORIDIAN HEALTHCARE
      SOLUTIONS, LLC,
    INAPPROPRIATELY PAID
 HOSPITALS’ MEDICARE CLAIMS
  SUBJECT TO THE POSTACUTE
   CARE TRANSFER POLICY IN
        JURISDICTION 2
  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                      November 2013
                                                      A-09-13-02035
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 Noridian Healthcare Solutions inappropriately paid Medicare claims subject to the
 postacute care transfer policy, resulting in overpayments to 73 hospitals totaling
 $1.1 million over 4 years. The hospitals improperly coded claims as discharges to home
 or certain types of health care institutions rather than as transfers to postacute care.

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews identified Medicare overpayments to
hospitals that did not comply with Medicare’s postacute care transfer policy. These hospitals
transferred inpatients to certain postacute care settings but claimed the higher reimbursement
associated with discharges to home. In those reports, we recommended that the Centers for
Medicare & Medicaid Services (CMS) provide education to make hospitals aware of the transfer
policy and require Medicare contractors to implement system edits to prevent and detect
postacute care transfers that are miscoded as discharges. CMS generally concurred with our
recommendations. However, in recent OIG reviews of hospitals’ compliance with Medicare
billing requirements and a review of Medicare claims subject to the postacute care transfer policy
in Jurisdiction 1, we identified overpayments to hospitals that did not comply with the policy.

The objective of this review was to determine whether Noridian Healthcare Solutions, LLC
(Noridian), the Medicare contractor for Jurisdiction 2, appropriately paid hospitals’ Medicare
claims subject to the postacute care transfer policy.

BACKGROUND

Medicare’s postacute care transfer policy distinguishes between discharges and transfers of
beneficiaries from hospitals under the inpatient prospective payment system. Consistent with the
policy, Medicare makes full Medicare Severity Diagnosis-Related Group (MS-DRG) payments
to hospitals that discharge inpatients to their homes or certain types of health care institutions,
such as hospice settings. In contrast, for specified MS-DRGs, Medicare pays hospitals that
transfer inpatients to certain postacute care settings, such as home health care and skilled nursing
facilities, a per diem rate for each day of the stay, not to exceed the full MS-DRG payment for a
discharge. Therefore, the full MS-DRG payment is either higher than or equal to the per diem
payment dependent on the patient’s length of stay in the hospital. CMS requires hospitals to
include a two-digit patient discharge status code on all inpatient claims to identify a beneficiary’s
status at the conclusion of an inpatient stay. Whether Medicare pays for a discharge or a transfer
depends on the patient discharge status code.

In 2004, CMS implemented Common Working File (CWF) edits to identify transfers improperly
coded as discharges. Specifically, if a postacute care claim is processed and paid before a
corresponding inpatient claim is processed, prepayment edits for inpatient claims are designed to
reject the incoming inpatient claim. However, if an inpatient claim is processed and paid before
a corresponding postacute care claim is processed, postpayment edits are designed to (1) adjust
the claim automatically by canceling the original inpatient claim and (2) identify the



Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)     i
overpayment. In both instances, the hospital may submit an adjusted claim with the appropriate
discharge status code to receive the per diem payment.

Our review covered approximately $4.6 million in Medicare Part A payments for 315 claims
with specified MS-DRGs in which beneficiaries were transferred to postacute care and with
dates of service during the period June 2009 through August 2012. These claims were submitted
by 73 short-term acute-care hospitals in Jurisdiction 2.

WHAT WE FOUND

Noridian inappropriately paid 315 Medicare claims subject to the postacute care transfer policy.
Noridian confirmed that hospitals used incorrect patient discharge status codes on their claims,
indicating that the patients were discharged to home or certain types of health care institutions
rather than transferred to postacute care. Of these claims, 95 percent were followed by claims
for home health services, and 5 percent were followed by claims for services in other postacute
care settings. Consequently, Noridian overpaid the hospitals by $1,137,346.

Noridian made these overpayments because the CWF edits related to postacute care transfers
were not working properly. Noridian did not receive the automatic adjustments that identify
overpayments on inpatient claims. In addition, the CWF edits that were specifically related to
transfers to home health care erroneously calculated the number of days between the dates of
service on the inpatient claim and the home health claim.

CMS published a change request, effective July 1, 2013, to notify Medicare contractors that
CMS had corrected the calculation of the number of days in the edits related to transfers to home
health care.

WHAT WE RECOMMEND

We recommend that Noridian:

    •   recover $1,137,346 in identified overpayments;

    •   educate Jurisdiction 2 hospitals on the importance of reporting the correct patient
        discharge status codes on transfer claims, especially when home health services have
        been ordered; and

    •   work with the CWF maintenance contractor to ensure that it receives the automatic
        adjustments identifying overpayments on inpatient claims.

NORIDIAN COMMENTS

In written comments on our draft report, Noridian concurred with all of our recommendations
and provided information on actions that it had taken or planned to take to address our
recommendations.



Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)     ii
                                                     TABLE OF CONTENTS


INTRODUCTION ..................................................................................................................... 1

           Why We Did This Review ............................................................................................. 1

           Objective ........................................................................................................................ 1

           Background .................................................................................................................... 1
                 Medicare’s Inpatient Prospective Payment System ........................................... 1
                 Postacute Care Transfer Policy .......................................................................... 1
                 Medicare Contractors ......................................................................................... 2
                 Medicare Claim Processing Systems ................................................................. 2
                 Noridian Healthcare Solutions, LLC ................................................................. 3

           How We Conducted This Review.................................................................................. 3

FINDINGS ................................................................................................................................. 3

           Federal Requirements .................................................................................................... 4

           Hospitals Improperly Coded Claims as Discharges to Home or Certain Types
            of Health Care Institutions Rather Than as Transfers to Postacute Care .................... 4

           Edits Were Not Working Properly To Prevent Overpayments to Hospitals ................. 5

RECOMMENDATIONS ........................................................................................................... 5

NORIDIAN COMMENTS ........................................................................................................ 6

APPENDIXES

           A: Related Office of Inspector General Reports ........................................................... 7

           B: Audit Scope and Methodology................................................................................. 8

           C: Noridian Comments ................................................................................................. 10




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)                                                   iii
                                            INTRODUCTION

WHY WE DID THIS REVIEW

Previous Office of Inspector General (OIG) reviews identified Medicare overpayments to
hospitals that did not comply with Medicare’s postacute care transfer policy. These hospitals
transferred inpatients to certain postacute care settings but claimed the higher reimbursement
associated with discharges to home. In those reports, we recommended that the Centers for
Medicare & Medicaid Services (CMS) provide education to make hospitals aware of the transfer
policy and require Medicare contractors to implement system edits to prevent and detect
postacute care transfers that are miscoded as discharges. CMS generally concurred with our
recommendations. However, in recent OIG reviews of hospitals’ compliance with Medicare
billing requirements and a review of Medicare claims subject to the postacute care transfer policy
in Jurisdiction 1, we identified Medicare overpayments to hospitals that did not comply with the
policy. (Appendix A contains a list of the previously issued OIG reports on hospitals’
submissions of Medicare claims subject to the postacute transfer policy.)

OBJECTIVE

Our objective was to determine whether Noridian Healthcare Solutions, LLC (Noridian), the
Medicare contractor for Jurisdiction 2, appropriately paid hospitals’ Medicare claims subject to
the postacute care transfer policy.

BACKGROUND

Medicare’s Inpatient Prospective Payment System

The Social Security Act (the Act) established the inpatient prospective payment system (IPPS)
for inpatient hospital services provided to Medicare beneficiaries (§§ 1886(d) and (g)). Under
the IPPS, CMS pays hospital costs at predetermined rates for patient discharges. A hospital
inpatient is considered discharged from a hospital when the patient is formally released from or
dies in the hospital.

CMS’s payment rates vary according to the Medicare Severity Diagnosis-Related Group
(MS-DRG) to which a beneficiary’s stay is assigned. The MS-DRG payment is, with certain
exceptions, intended to be payment in full to the hospital for all inpatient costs associated with
the beneficiary’s stay.

Postacute Care Transfer Policy

Section 4407 of the Balanced Budget Act of 1997, P.L. No. 105-33, added section 1886(d)(5)(J)
to the Act to establish the Medicare postacute care transfer policy. This provision and its
implementing regulations (42 CFR § 412.4(c)) state that a postacute care transfer occurs when a
beneficiary whose hospital stay was classified within specified MS-DRGs is discharged from an
IPPS hospital in one of the following situations:




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)      1
    •   The beneficiary is admitted on the same day to a hospital or hospital unit that is not
        reimbursed under the IPPS.

    •   The beneficiary is admitted on the same day to a skilled nursing facility.

    •   The beneficiary receives home health services from a home health agency, the services
        are related to the condition or diagnosis for which the beneficiary received inpatient
        hospital services, and the services are provided within 3 days of the beneficiary’s hospital
        discharge date.

Medicare makes the full MS-DRG payment to a hospital that discharges an inpatient to home or
certain types of health care institutions, such as hospice settings. In contrast, Medicare pays a
hospital that transfers an inpatient to postacute care a per diem rate for each day of the stay, not
to exceed the full MS-DRG payment that would have been made if the inpatient had been
discharged to home. Therefore, the full MS-DRG payment is either higher than or equal to the
per diem payment dependent upon the patient’s length of stay in the hospital.

CMS requires hospitals to include a two-digit patient discharge status code on all inpatient
claims to identify a beneficiary’s status at the conclusion of an inpatient stay. Whether Medicare
pays for a discharge or a transfer depends on the patient discharge status code.

Medicare Contractors

CMS contracts with Medicare contractors to, among other things, process and pay Medicare
claims submitted for hospital services. The Medicare contractors’ responsibilities include
determining reimbursement amounts, conducting reviews and audits, and safeguarding against
fraud and abuse.

Medicare Claim Processing Systems

Medicare contractors use the Fiscal Intermediary Standard System (FISS) to process inpatient
claims submitted by hospitals in their designated jurisdictions. After being processed through
the FISS, and before payment, all claims are sent to CMS’s Common Working File (CWF)
system for verification, validation, and payment authorization. Once the CWF has processed a
claim, it electronically transmits information to the contractor regarding potential errors on the
claim. Both the FISS and CWF contain edits to prevent and detect overpayments.

On January 1, 2004, CMS implemented CWF edits 1 to identify improperly coded hospital claims
and instructed the Medicare contractors to automatically cancel hospital claims that had incorrect
patient discharge status codes. On March 15, 2004, CMS revised these edits and established new
criteria for an automatic claim cancellation. Specifically, if a postacute care claim is processed
and paid before a corresponding inpatient claim is processed, prepayment edits for inpatient
claims are designed to reject the incoming inpatient claim. However, if an inpatient claim is
processed and paid before a corresponding postacute care claim is processed, postpayment edits
1
 The CWF edits operate generally in the same way for all types of postacute care transfers depending on the
postacute care setting as specified in 42 CFR § 412.4(c).


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)               2
are designed to (1) adjust the claim automatically by canceling the original inpatient claim and
(2) identify the overpayment. In both instances, the hospital may submit an adjusted claim with
the appropriate discharge status code to receive the per diem payment.

Noridian Healthcare Solutions, LLC

During our audit period, Noridian Healthcare Solutions, LLC (Noridian), was the Medicare
contractor for Jurisdiction 2 hospitals in four States: Alaska, Idaho, Oregon, and Washington. 2

HOW WE CONDUCTED THIS REVIEW

Our review covered $4,600,157 in Medicare Part A payments for 315 claims with specified
MS-DRGs in which beneficiaries were transferred to postacute care and with dates of service
during the period June 2009 through August 2012. These claims were submitted by 73 short-
term acute-care hospitals in Jurisdiction 2.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files.
Through data analysis, we identified inpatient claims subject to the postacute transfer policy that
were improperly coded as discharges to home or certain types of health care institutions.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology.

                                                  FINDINGS

Noridian inappropriately paid 315 Medicare claims subject to the postacute care transfer policy.
Noridian confirmed that hospitals used incorrect patient discharge status codes on their claims,
indicating that the patients were discharged to home or certain types of health care institutions
rather than transferred to postacute care. Of these claims, 95 percent were followed by claims
for home health services, and 5 percent were followed by claims for services in other postacute
care settings. Consequently, Noridian overpaid the hospitals by $1,137,346. Noridian made
these overpayments because the CWF edits related to transfers to home health care, skilled
nursing facilities, and non-IPPS hospitals were not working properly.




2
  Noridian is currently the Medicare contractor for hospitals in Jurisdiction F, which consolidated Jurisdictions 2
and 3 on August 22, 2011. Because Noridian was the Medicare contractor for Jurisdiction 2 hospitals, it is currently
responsible for those hospitals under Jurisdiction F. Therefore, Noridian is responsible for collecting any
overpayments and resolving any issues related to this audit.


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)                    3
FEDERAL REQUIREMENTS

Federal regulations state that for a beneficiary whose hospital stay was classified within one of
the specified MS-DRGs, a discharge from an IPPS hospital to a qualifying postacute care setting
is considered a transfer (42 CFR § 412.4(c)). The qualifying postacute care settings are
(1) hospitals or hospital units that are not reimbursed under the IPPS, 3 (2) skilled nursing
facilities, and (3) home health care if services are provided within 3 days of the discharge.

CMS requires hospitals to include patient discharge status codes on all inpatient claims. 4 When
a beneficiary is transferred to a setting subject to the postacute care transfer policy, a specific
discharge status code should be used, depending on the type of postacute care setting. For
example, discharge status code 03 should be used when the beneficiary is transferred to a skilled
nursing facility, discharge status code 06 should be used when a beneficiary is transferred to
home for home health services, and discharge status code 62 should be used when a beneficiary
is transferred to an inpatient rehabilitation facility. 5 The Federal Register emphasizes that the
hospital is responsible for coding the bill on the basis of its discharge plan for the patient. If the
hospital subsequently determines that postacute care was provided, it is responsible for either
coding the original bill as a transfer or submitting an adjusted claim. 6

The Medicare Financial Management Manual, Pub. 100-06, chapter 7, section 10, states that the
contractor must administer the Medicare program efficiently and economically and refers to the
Medicare contractors’ Statement of Work, which further states that the contractor must establish
and maintain efficient and effective internal controls.

HOSPITALS IMPROPERLY CODED CLAIMS AS DISCHARGES TO HOME OR
CERTAIN TYPES OF HEALTH CARE INSTITUTIONS RATHER THAN AS
TRANSFERS TO POSTACUTE CARE

Noridian inappropriately paid 315 Medicare claims subject to the postacute care transfer policy
during the period June 2009 through August 2012. Noridian confirmed that hospitals improperly
coded these claims as discharges to home (287 claims) or to certain types of health care
institutions (28 claims) rather than as transfers to postacute care by using the incorrect patient
discharge status codes. Of these claims:



3
 The Act refers to hospitals and hospital units that are not reimbursed under the IPPS as “not subsection (d)
hospitals” (§ 1886(d)(5)(J)). The Act also identifies the hospitals and hospital units that are excluded from the term
“subsection (d) hospitals,” such as psychiatric hospitals and units, rehabilitation hospitals and units, children’s
hospitals, long-term-care hospitals, and cancer hospitals (§ 1886(d)(1)(B)).
4
    Medicare Claims Processing Manual, Pub. No. 100-04, chapter 25, § 75.2.
5
 Medicare Claims Processing Manual, Pub. No. 100-04, chapter 3, § 40.2.4; Program Memorandum, Transmittal
No. A-01-39, Mar. 22, 2001, Change Request 1565; Medicare Learning Network’s MLN Matters Number: SE0801;
and MLN Matters Number: MM4046, Related Change Request 4046.
6
    63 Fed. Reg. 40954, 40980 (July 31, 1998). See also MLN Matters Number: SE0408.



Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)                      4
    •   298 claims were followed by claims for home health services provided within 3 days of
        the discharge date, resulting in $1,071,798 of overpayments to the discharging hospitals;

    •   13 claims were followed by claims for skilled nursing services provided on the same day
        as the discharge date, resulting in $37,977 of overpayments to the discharging hospitals;
        and

    •   4 claims were followed by claims for admissions to non-IPPS hospitals or hospital units
        on the same day as the discharge date, resulting in $27,571 of overpayments to the
        discharging hospitals.

As a result, Noridian overpaid 73 hospitals by $1,137,346. The overpayments represented the
difference between the full MS-DRG payments and the per diem rates that should have been
applied.

EDITS WERE NOT WORKING PROPERLY TO PREVENT
OVERPAYMENTS TO HOSPITALS

Noridian overpaid the hospitals because the CWF edits related to transfers to home health care,
skilled nursing facilities, and non-IPPS hospitals were not working properly. Noridian did not
receive the automatic adjustments that identify overpayments on inpatient claims.

In addition, the CWF edits specifically related to transfers to home health care erroneously
calculated the number of days between the dates of service on the inpatient claim and the home
health claim. Rather than calculating the number of days between the inpatient and home health
claims as 3 days after the date of discharge from the inpatient hospital, the edits erroneously
calculated the number of days as 2 days after the date of discharge.

CMS published a change request, effective July 1, 2013, to notify Medicare contractors that
CMS had corrected the calculation of the number of days in the edits related to transfers to home
health care.

                                        RECOMMENDATIONS

We recommend that Noridian:

    •   recover $1,137,346 in identified overpayments;

    •   educate Jurisdiction 2 hospitals on the importance of reporting the correct patient
        discharge status codes on transfer claims, especially when home health services have
        been ordered; and

    •   work with the CWF maintenance contractor to ensure that it receives the automatic
        adjustments identifying overpayments on inpatient claims.




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)     5
                                          NORIDIAN COMMENTS

In written comments on our draft report, Noridian concurred with all of our recommendations
and provided information on actions that it had taken or planned to take to address our
recommendations. Noridian’s comments are included in their entirety as Appendix C.




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)   6
          APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                  Report Title                                            Report Number    Date Issued
Medicare Compliance Review of Community Regional                          A-09-12-02071     6/11/2013
Medical Center7

Palmetto GBA, LLC, Inappropriately Paid Hospitals’                         A-09-12-02038    5/29/2013
Medicare Claims Subject to the Postacute Care
Transfer Policy in Jurisdiction 1

Medicare Compliance Review of Cedars-Sinai Medical                         A-09-12-02048    5/15/2013
Center for the Period January 1, 2008, Through
June 30, 20117

Medicare Compliance Review of California Pacific                           A-09-12-02027    1/10/2013
Medical Center, Pacific Campus, for Calendar Years
2009 and 20107

Medicare Compliance Review of Hoag Memorial                                A-09-12-02012   12/10/2012
Hospital Presbyterian for Calendar Years 2008
Through 2011 7

Medicare Overpaid Some Fiscal Year 2008 and 2009                           A-04-11-00078    4/24/2012
Jurisdiction 4 Inpatient Rehabilitation Facility Claims
That Did Not Comply With Transfer Regulations

Medicare Compliance Review of John Muir Medical                            A-09-11-02060    2/23/2012
Center, Walnut Creek, for Calendar Years 2008
Through 20107

Medicare Compliance Review of University of                                A-09-11-02055    2/23/2012
California, San Diego, Medical Center for Calendar
Years 2008 and 20097

Medicare Compliance Review of University of                                A-09-11-02034    9/21/2011
California, San Francisco, Medical Center for
Calendar Years 2008 and 20097

Hospital Compliance With Medicare’s Postacute Care                         A-04-07-03035    2/27/2009
Transfer Policy During Fiscal Years 2003 Through
2005




7
    The postacute care transfer issue was only one of the findings in this report.


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)          7
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered $4,600,157 in Medicare Part A payments for 315 claims with specified
MS-DRGs in which beneficiaries were transferred to postacute care and with dates of service
during the period June 2009 through August 2012. These claims were submitted by
73 short-term acute-care hospitals in Jurisdiction 2.

Our audit allowed us to establish reasonable assurance of the authenticity and accuracy of the
data obtained from Medicare payment files; we did not assess the completeness of the files.
Through data analysis, we identified inpatient claims subject to the postacute transfer policy that
were improperly coded as discharges to home or certain types of health care institutions. We
limited our review of Noridian’s internal controls to those applicable to implementation of
Medicare’s postacute care transfer policy. We did not evaluate the medical records of the IPPS
hospitals from which the beneficiaries in our review were discharged to determine whether there
was a written plan of care for the provision of home health services.

We conducted our audit from July 2012 to July 2013 and performed fieldwork at Noridian in
Fargo, North Dakota.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance;

    •   used CMS’s National Claims History File to identify inpatient claims with specified
        MS-DRGs, during our audit period, for beneficiaries who received certain postacute care
        services after inpatient stays;

    •   used computer matching, data mining, and data analysis techniques to identify for review
        315 claims coded as discharges to home or certain types of health care institutions;

    •   sent the 315 claims to Noridian officials to verify that the claims were miscoded and to
        determine the cause of the miscoding;

    •   interviewed Noridian officials and reviewed documentation provided by them to
        understand how they processed claims and to determine why Noridian made payments
        for the miscoded claims;




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)    8
    •   used CMS’s PC Pricer to reprice each improperly paid claim to determine the transfer
        payment amount, compared the repriced payment with the actual payment, and
        determined the value of the overpayment; 8 and

    •   discussed the results of our review with Noridian officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




8
  CMS’s PC Pricer is software used to estimate Medicare payments. Because of timing differences in the data used
to determine the payments, the estimated payments may not match exactly the actual claim payments.


Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)                    9
                                           APPENDIX C: NORIDIAN COMMENTS 





      11orid1an  Healthcare Solutions
                                                                                                           900 42nd Street South
                                                                                                                Fargo, NO 58103




       November 6, 2013




       Report Number: A-09-13-02035


       Lori A. Ahlstrand
       Regional Inspector General for Audit Services
       Office of Audit Services, Region IX
       9D-7111 St, Suite 3-6SO
       San Francisco, CA 94103


       Dear Ms. Ahlstrand,


       Noridian Healthcare Solutions, LLC (Noridian) has reviewed the draft report, entitled Noridion Heolthcore Solutions,
       LLC, Inappropriately Paid Hospitals' Medicare Claims Subject to the Postocute Core Transfer Policy in Jurisdiction 2.
       Below are our comments and responses to the OIG's recommendations.


       Noridian concurs with all of the recommendations.


       The first OIG recommendation was that No rid ian recover $1,137,346 in identified overpayments for claims with
       specified MS-DRGs in which beneficiaries were transferred to postacute care and with dates of service during the
       period June 2009 through August 2012. No rid ian has reviewed the OIG provided spreadsheet and finds that only
       $14,299 remains uncollected.


       The second OIG recommendation was that Noridian educate Jurisdiction 2 hospitals on the importance of reporting
       the correct patient discharge status codes on transfer claims, especially when home health services have been
       ordered. Noridian published an educational article on October 21, 2013 reminding providers ofthe importance of
       using the appropriate discharge status codes and explaining the payment methodology applied according to the
       discharge status used. The article also included a listing of the discharge status codes used to indicate a transfer
       case. https://www.noridianmedicare.com/cgi­
       bin/coranto/viewnews.cgi?id=EFikFZAupiFLGtWHCO&tmpl=part a viewnews&stvle=part ab viewnews


       The third OIG recommendation was that Noridian work with the CWF maintenance contractor to ensure it receives
       the automatic adjustments identifying overpayments on inpatient claims. When CWF identifies an overlap claim or
       duplicate, CWF will send back an Informational Unsolicited Response (IUR) or a CWF edit/response to Noridian.
       Noridian will monitor/work the IUR or CWF edit to ensure the claims process correctly and overpayments are




       A CMS Medicare Administrative Contractor
                                                                                                                   29312033 (3203) 4-13
        Nordan Helltheate Solutions. LLC




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)                                           10
       recovered, if appropriate. Noridian continues coordination with The Standard Fiscal Intermediary Systems (FISS)
       maintenance contractor and the CWF maintenance contractor to ensure claims process correctly and overpayments
       are recovered, if appropriate.


       We appreciate the opportunity to comment on this report and the findings. If you have any questions on this
       response and Noridian' s actions, please contact me at 701-282-1356 or through email at
       Emy.Stenerson@noridian.com.


       Sincerely,



         ~Sr
       Emy Stenerson,
       Senior Vice President and JF Project Manager


       cc: 	   Pamela Bragg, JF COR, CMS
               Tom McGraw, CEO and President of No rid ian Healthcare Solutions, LLC




Medicare Claims Subject to the Postacute Care Transfer Policy in Jurisdiction 2 (A-09-13-02035)                          11
